U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 30, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Kenneth Daniels v. United States of America
S.CtNo. 19-28

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 1, 2019,
and placed on the docket on July 2, 2019. The government's response is due on August 1, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 3, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0028
DANIELS, KENNETH
USA

MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON , DC 20001
202-756-8000
MKIMBERLY@MWE.COM
KARL D. SCHWARTZ
WISEMAN & SCHWARTZ LLP
718 ARCH STREET
SUITE 702 NORTH
PHILADELPHIA, PA 19106
267-758-2326

